           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       ADMINISTRATIVE COSTS
        CLAIMED BY THE IOWA
     DISABILITY DETERMINATION
              SERVICES

     June 2005   A-07-04-14087




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                          SOCIAL SECURITY
MEMORANDUM

Date:   June 7, 2005                                                               Refer To:

To:     Ramona Schuenemeyer
        Acting Regional Commissioner
         Kansas City

From:   Inspector General

Subject: Administrative Costs Claimed by the Iowa Disability Determination Services
        (A-07-04-14087)

        OBJECTIVE

        The objectives of our audit were to evaluate the Iowa Disability Determination Services’
        (IA-DDS) internal controls over the accounting and reporting of administrative costs,
        determine whether costs claimed were allowable and funds were properly drawn, and
        assess limited areas of the general security controls environment. Our audit included
        the administrative costs claimed by the IA-DDS during Fiscal Years (FY) 2001 through
        2003.

        BACKGROUND

        Disability determinations under both Disability Insurance and Supplemental Security
        Income are performed by Disability Determination Services (DDS) in each State or other
        responsible jurisdictions. Such determinations are required to be performed in
        accordance with Federal law and underlying regulations.1 In carrying out its obligation,
        each DDS is responsible for determining claimants’ disabilities and ensuring that
        adequate evidence is available to support its determinations.2

        The Social Security Administration (SSA) reimburses the DDS for 100 percent of
        allowable program expenditures up to the limit of its funding authority. The DDS
        withdraws Federal funds through the Department of the Treasury’s (Treasury)
        Automated Standard Application for Payments System (ASAP) to pay for program
        expenditures. Funds drawn down must comply with Federal regulations and
        intergovernmental agreements entered into by Treasury and States under the Cash



        1
            42 U.S.C. § 421; 20 C.F.R. §§ 404.1601 et seq. and 416.1001 et seq.
        2
            20 C.F.R. §§ 416.1013(a) and 416.1014(a).
Page 2 – Ramona Schuenemeyer


Management Improvement Act of 1990. At the end of each quarter of the FY each DDS
submits a State Agency Report of Obligations for SSA Disability Programs (SSA-4513)
to account for program disbursements and unliquidated obligations.

The Iowa Division of Vocational Rehabilitation Services (IA-DVRS) within the Iowa
Department of Education is the IA-DDS’ parent agency. The IA-DDS is located in
Des Moines, Iowa. See Appendix B for our scope and methodology.

RESULTS OF REVIEW

Generally, the IA-DDS had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit were allowable.
However, improvements were needed in the areas of cash management and medical
services obligations.

CASH MANAGEMENT

Funds to cover IA-DDS expenditures are drawn from the ASAP system. For each FY,
the IA-DDS is assigned an account identification number(s) in ASAP.3 Cash draws
made from the account identification number(s) are to reimburse IA-DDS for
expenditures incurred during the same period as the account identification number’s FY
reporting period.4

We reviewed the IA-DDS’ six ASAP accounts related to our audit period. We found that
the total cash draws reported for each of the ASAP accounts were not equal to the total
disbursements reported by the IA-DDS on the corresponding SSA-4513s, as illustrated
in the table below.

                   Variance of ASAP Cash Draws to SSA-4513 Disbursements
                     ASAP            ASAP             SSA-4513       Over (Under)
          FY        Account       Cash Draws       Disbursements      Cash Draw
         2001       0104IADI00         $12,879,568              $12,753,536         $126,032
         2001       0104IADI02               $6,468                  $1,767            $4,700
         2002       0204IADI00         $14,589,005              $14,702,477        ($113,471)
         2002       0204IADI02               $5,871                  $4,293            $1,578
         2003       0304IADI00         $14,596,462              $14,703,862        ($107,400)
         2003       0304IADI02               $8,928                  $6,024            $2,904
             Total Variance           $42,086,302              $42,171,959         ($85,657)


3
 A DDS may have more than one ASAP account identification number each FY. For example, DDS may
have an ASAP account dedicated to information technology costs and another account dedicated to all
other administrative costs.
4
    31 U.S.C. § 1502.
Page 3 – Ramona Schuenemeyer


For our 3-year audit period, it appeared that the IA-DDS drew $85,657 less than its
actual disbursements. However, as shown in the following table, the IA-DDS routinely
transferred funds between ASAP accounts. The transfers between ASAP accounts also
occurred in FYs outside our audit period. Therefore, we could not conclude that the
IA-DDS’ cash draws were less than its disbursements during our 3-year audit period,
since the ASAP accounts contained transfers from ASAP accounts outside of our audit
period and transfers to ASAP accounts to pay expenditures for FYs outside of our audit
period.

Given the IA-DDS’ routine transfers between ASAP accounts, it would have been
necessary to reconstruct cash draws from FY 1997 to the present date to determine if
cash draws were appropriate.5 We did not expand the scope of our review of cash
draws since we found no indication that the IA-DDS used the Federal funds for
disbursements other than those allowable for reimbursement by SSA.

                         Funds Transferred Between ASAP Accounts
                                Cash           Cash           Net
                  ASAP      Transferred     Transferred      Cash                    Number of
                 Account      In to the      Out of the   Transferred                Transfers
       FY        Number       Account        Account    In/Out Account                 In/Out
      2001     0104IADI00           $184,627         ($58,625)           $126,002             19
      2001     0104IADI02             $5,876          ($1,176)             $4,700             11
      2002     0204IADI00             $72,794       ($186,266)         ($113,471)             14
      2002     0204IADI02              $3,298         ($1,720)             $1,578              4
      2003     0304IADI00             $43,024       ($150,423)         ($107,400)             10
      2003     0304IADI02              $3,002         ($1,002)             $2,000              3

The transfer of funds between accounts allows for an inappropriate use of one FYs
appropriation to be used to pay the expenses of another FY. Federal statute states,
“The balance of an appropriation or fund limited for obligation to a definite period is
available only for payment of expenses properly incurred during the period of availability
or to complete contracts properly made within that period of availability and obligated
consistent with section 1501 of this title.”6

The ASAP system has a feature that allows recipients of Federal funds to transfer cash
between accounts. SSA has the option to have this feature disabled. However, the
Kansas City Regional Office prefers that the feature remain enabled to allow DDSs to




5
    The IA-DDS began using the ASAP system for Federal cash draws on October 1, 1996 (FY 1997).
6
    31 U.S.C. § 1502(a).
Page 4 – Ramona Schuenemeyer


transfer funds between ASAP accounts as needed.7 If the feature remains enabled, the
Regional Office needs to improve its oversight of DDS cash management activities. For
example, the Regional Office currently does not know when a DDS transfers cash
between ASAP accounts because it does not require DDSs to obtain prior approval to
transfer funds. Furthermore, the Regional Office has not obtained access to the ASAP
system so it can properly monitor DDS cash management activities.8 The lack of proper
oversight of DDS cash management activities places Federal funds at risk of
mismanagement.

MEDICAL SERVICES OBLIGATIONS
Our review of 150 consultative examination (CE) and medical evidence of record (MER)
payments identified 12 payments that were claimed for reimbursement in the wrong
FY.9 Although the CE and MER payments were claimed in the wrong FY, they were
otherwise allowable for reimbursement by SSA. The 12 payments were claimed for
reimbursement in the wrong FY because the IA-DDS followed State policy to obligate
expenditures and the policy conflicted with SSA instructions. The State’s policy requires
that CE and MER be obligated upon receipt of the service. However, SSA instructions
require that obligations for CE and MER be recorded on the date the service is
authorized for purchase.10

The State policy resulted in CE and MER ordered at or near the end of a FY to be
claimed for reimbursement in the subsequent FY because the IA-DDS obligates the
expenditures after the service is received. Given this State policy, CE and MER
payments authorized by the IA-DDS during August and September of a FY are most
likely claimed for reimbursement by the IA-DDS in the subsequent FY. For example,

      ¾ The IA-DDS authorized one of the six CEs we reviewed to be purchased on
        September 7, 2000 (FY 2000). The CE appointment occurred on
        October 17, 2000 (FY 2001). The IA-DDS claimed reimbursement for the CE in
        FY 2001. According to SSA instructions, the reimbursement should have been
        claimed in FY 2000, the FY the service was authorized.




7
 In comments to our draft report, the Acting Regional Commissioner stated that SSA’s Central Office
prefers that the ASAP system feature that allows DDSs to transfer funds between accounts remain
enabled (see Appendix C).
8
  In comments to our draft report, the Acting Regional Commissioner stated that the region is exploring
the possibility of gaining access to the ASAP system (see Appendix C).
9
  The 12 payments totaled $1,281 and consisted of 6 CE payments totaling $1,071 and 6 MER payments
totaling $210.
10
     POMS DI 39506.201C.
Page 5 – Ramona Schuenemeyer


Improperly shifting costs between FYs prevents SSA from accurately monitoring the
status of States’ expenditures and unexpended appropriations. The IA-DDS should
follow SSA’s instructions and obligate CE and MER at the time the service is
authorized.

CONCLUSION AND RECOMMENDATIONS

Generally, the IA-DDS had effective internal controls over the accounting and reporting
of administrative costs and the costs it claimed during our audit period were allowable.
However, improvements were needed in the areas of cash management and medical
services obligations.

Accordingly, we recommend that the SSA Regional Commissioner:

   1. Require DDSs in the Kansas City Region to obtain approval to transfer funds
      between ASAP accounts.

   2. Establish an oversight process to properly monitor DDS cash management
      activities.

   3. Instruct the IA-DDS to obligate MER and CE expenditures at the time the service
      is authorized.

Agency Comments

In commenting on our draft report, SSA and IA-DVRS agreed with our
recommendations. See Appendix C and D respectively, for the full text of SSA’s and
IA-DVRS’ comments.




                                                S
                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – State Agency Comments
APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                    Appendix A

Acronyms
ASAP       Automated Standard Application for Payments System

CE         Consultative Examination

C.F.R.     Code of Federal Regulations

DDS        Disability Determination Services

FY         Fiscal Year

IA-DDS     Iowa Disability Determination Services

IA-DVRS    Iowa Division of Vocational Rehabilitation Services

MER        Medical Evidence of Record

POMS       Program Operations Manual System

SSA        Social Security Administration

SSA-4513   State Agency Report of Obligations for SSA Disability
           Programs

Treasury   Department of the Treasury

U.S.C.     United States Code
                                                                       Appendix B

Scope and Methodology
SCOPE
To achieve our objective, we:

 • Reviewed applicable Federal laws and regulations, pertinent parts of Social
    Security Administration’s (SSA) Program Operations Manual System and other
    criteria relevant to administrative costs claimed by the Iowa Disability Determination
    Services (IA-DDS) and the drawdown of SSA program grant funds.

 • Interviewed staff and officials at IA-DDS, Iowa Division of Vocational Rehabilitation
    Services (IA-DVRS), and the SSA Kansas City Regional Office.

 • Reviewed State policies and procedures related to personnel, medical services, and
    all other nonpersonnel costs.

 • Evaluated and tested internal controls regarding accounting, financial reporting, and
    cash management activities.

 • Reconciled State accounting records to the administrative costs reported by the
    IA-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (SSA-4513) for Fiscal Years (FY) 2001 through 2003.

 • Examined and reviewed the administrative costs IA-DDS reported on its SSA-4513s
    for FYs 2001 through 2003.

 • Examined certain administrative expenditures (personnel, medical services, and all
    other nonpersonnel costs) incurred and claimed by IA-DDS for FYs 2001 through
    2003 on the SSA-4513. We used statistical sampling to select expenditures to test
    for support of the medical service and all other nonpersonnel costs.

 • Examined the indirect costs claimed by the IA-DDS for FYs 2001 through 2003.

 • Compared the amount of SSA funds drawn for support of program operations to the
    expenditures reported on the SSA-4513.

 • Reviewed IA-DDS general security controls related to physical security and
    continuity of operations.




                                           B-1
We determined that the data provided by IA-DVRS and used in our audit was
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling it with the costs claimed on the SSA-4513. We also conducted
detailed audit testing on selected data elements in the electronic data files.

We performed work at the IA-DDS and IA-DVRS in Des Moines, Iowa and the Office of
Audit in Kansas City, Missouri. We conducted fieldwork from July 2004 through
December 2004. The audit was conducted in accordance with generally accepted
government auditing standards.

METHODOLOGY

SAMPLING METHODOLOGY

We reviewed the $42,159,875 administrative costs IA-DDS reported on its SSA-4513 for
FYs 2001 through 2003. The sampling methodology encompassed the four general
areas of costs reported on the SSA-4513 (1) personnel, (2) medical, (3) indirect, and
(4) all other nonpersonnel costs. We obtained a data extract of all costs and the
associated invoices for FYs 2001 through 2003 for use in statistical sampling. This was
obtained from the accounting systems used in the preparation of the SSA-4513.
Personnel Costs

We randomly selected a 2-week pay period in the most recent year under review. We
then selected a random sample of employees for review and testing of the payroll
records.

For medical consultant costs, we selected two pay periods from the most recent year
under review. We selected two pay periods because during our audit period the
medical consultants were converted from contractual employees to IA-DDS employees;
and, therefore, were paid by two different methods. The first pay period selected was
prior to the medical consultants being converted to IA-DDS employees. The second
pay period selected was after the medical consultants were converted to IA-DDS
employees. For each pay period, we randomly selected the same medical consultants
and verified that the medical consultants were paid correctly before and after the
conversion.

Medical Costs

We sampled 150 items (50 items from each FY) using a stratified random sample of
medical cost based on the proportion of medical evidence of record and consultative
examination costs to the total medical costs claimed.




                                            B-2
Indirect Costs

IA-DDS indirect costs are computed by applying a federally approved rate to a cost
base.1 This methodology was approved by the Department of Education, which is the
Federal agency designated to negotiate and approve the indirect cost rate for the
IA-DVRS. During FYs 2001 through 2003, IA-DDS claimed $2,628,808 for indirect
costs. We reviewed the FY 2001, 2002, and 2003 indirect cost calculations to ensure
the correct rate was applied.

All Other Nonpersonnel Costs

We sampled 150 items (50 expenditures from each FY) using a stratified random
sample. The random sample was based on the proportion of costs in each of the cost
categories to the total costs claimed.




1
  The cost base represents the total of direct costs less terminal leave, capitalized equipment, medical
costs, alterations, renovations, flow through funds and that portion of each sub award in excess of
$25,000 per year.


                                                   B-3
                                                                                                Appendix C

Agency Comments

From:         ||KC ORC
Sent:         Wednesday, May 25, 2005 1:19 PM
To:           O'Carroll, Pat
Cc:           Schaeffer, Steve; Scruggs, Gail; Scruggs, Gail; Skurnik, Candace; ^DCO Audit; Austin, Stacy; Marten, Lynn;
              Shivers, Janet; Kerr-Davis, Linda; Douthit, Ron; ||KC ORC; ||KC ARC MOS
Subject:       (A-07-04-14087)(Audit #22004034)(ICN #34055-24-1211)--Kansas City Region Response



MEMORANDUM

Date:      May 25, 2005

To:        Inspector General

From:      Acting Regional Commissioner
           Kansas City

Subject:   Administrative Costs Claimed by the Iowa Disability Determination Services
           (A-07-04-14087)

We apologize for the delay in our response. We appreciate the opportunity to provide input on
the draft report of the recent administrative audit conducted at the Iowa DDS. Overall we do
agree with the results of the review and the three recommendations outlined in the draft. The
DDS does maintain effective internal controls over the accounting and reporting of the
administrative costs and costs claimed. We would offer the comments below on the review
findings and recommendations for your consideration in the final report.

Cash Management
This section contains several statements we would like to clarify. The draft report states: "The
ASAP system has a feature that allows recipients of Federal funds to transfer cash between
accounts. SSA has the option to have this feature disabled. However, the Kansas City Regional
Office prefers that the feature remain enabled to allow DDSs to transfer funds between ASAP
accounts as needed. If the feature remains enabled, the Regional Office needs to improve its
oversight of DDS cash management activities…….Furthermore, the Regional Office has not
obtained access to the ASAP system so it can properly monitor DDS cash management
activities." The Center for Disability Programs in the Regional Office consulted with the
Resource Management Branch at Central Office for their input on disabling the ASAP feature
that allows for transfer between accounts. It was their recommendation that the feature remain
intact in the State's ASAP system. In this same paragraph OIG states that the Regional Office
has not obtained access to ASAP. Historically, Central Office has maintained monitoring



                                                         C-1
responsibilities for ASAP withdrawals. In light of this audit finding, we are exploring the
possibility of the region's fiscal analyst gaining access to ASAP.

Recommendations
Recommendation 1
The Kansas City Regional Office agrees to instruct the State agency to request approval prior to
transferring funds between accounts. However, the State has already revised their procedures in
November 2004 to using the negative draw down method versus the transfer of funds. We
expect there will be little use of the transfer of funds. The Regional Office will prepare a
procedure revision for the State agency to contact the fiscal analyst prior to use of the transfer of
funds method. In addition, the Regional Office will request the State agency provide a copy of
any written procedure changes noting the revision to using the negative draw down method.

Recommendation 2
The Regional Office will request Central Office review any transfer of funds to ensure they are
processed correctly in ASAP.

Recommendation 3
We agree with this recommendation. The State agency has agreed to make revisions to their
internal procedures to ensure the MER and CE authorizations are paid from the same FY in
which they were obligated.

Thank you for the opportunity to provide input on the draft report. If you have any questions
regarding our comments please contact our Regional Office DDS fiscal analyst, Linda Kerr-
Davis. She can be reached at 816-936-5691.

                          Ramona




                                                 C-2
                        Appendix D

State Agency Comments
D-1
D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division (816) 936-5591

   Ron Bussell, Audit Manager (816) 936-5577

Acknowledgments

In addition to those named above:

   Kenneth Bennett, Information Technology Specialist

   Douglas Kelly, Auditor

   Cheryl Robinson, Writer-Editor


For additional copies of this report, please visit out web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-04-14087.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
